Report No. DODIG-2012-042                 January 20, 2012




     Naval Air Systems Command Lakehurst Contracts
   Awarded Without Competition Were Properly Justified
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
FAR                   Federal Acquisition Regulation
FPDS-NG               Federal Procurement Data System – Next Generation
J&A                   Justification and Approval
NAVAIR                Naval Air Systems Command
NAVAIRINST            Naval Air Systems Command Instruction
NMCARS                Navy Marine Corps Acquisition Regulation Supplement
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                              4800 MARK CENTER DRIVE 

                           ALEXANDRIA, VIRGINIA 22350-1500 





                                                                         January 20, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL

SUBJECT: Naval Ail' Systems Command Lakehurst Contracts Awarded Without
         Competition Were Properly Justified (Report No. 000IG-2012-042)

We are providing this report for your information and use. This report is the first in a
series of audit reports on DoD contracts awarded without competition. Naval Ail'
Systems Command Lakehurst personnel generally prepared and approved adequate sole­
source justifications and approvals for other than full and open competition and generally
documented compliance with additional Federal requirements to support those sole­
source determinations. We are publishing this report in final form because no written
response to this report was required, and none was received.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077).




                                       ~(~10; tt",      L
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. DODIG-2012-042 (Project No. D2011-D000CG-0228.000)                    January 20, 2012
	



               Results in Brief: Naval Air Systems
               Command Lakehurst Contracts Awarded
               Without Competition Were Properly Justified
                                                          NAVAIR Lakehurst personnel:
What We Did                                                 •	 generally included all required data
Our audit objective was to determine whether                   elements in the J&As;
DoD noncompetitive contract awards were                     •	 appropriately applied the cited authority
properly justified as sole source. This report is              permitting other than full and open
the first in a series of reports on DoD contracts              competition in the J&As;
awarded without competition and includes                    •	 obtained proper approval to issue
	
contracts issued by the Naval Air Systems                      noncompetitive contract awards;
	
Command (NAVAIR) Lakehurst. We reviewed                     •	 documented compliance with FAR
23 noncompetitive contracts with a combined                    Part 10, “Market Research,” in the
base contract value of about $50.1 million that                contract file; and
NAVAIR Lakehurst contracting personnel                      •	 complied with FAR Subpart 5.2
awarded in FY 2009 and FY 2010.                                “Synopses of Proposed Contract
                                                               Actions,” when synopsizing actions that
Full and open competition is the preferred                     required a presolicitation notice, with the
method for Federal agencies to award contracts.                exception of including all required
Section 2304, title 10, United States Code, and                language in the presolicitation notice.
Section 253, title 41, United States Code require
contracting officers to promote and provide for
full and open competition when soliciting offers          Management Comments
and awarding contracts. Contracting officers              We do not require a written response to this
may use procedures other than full and open               report. Please see the recommendations table on
competition under certain circumstances.                  the back of this page.
However, each contract awarded without
providing for full and open competition must
conform to policies and procedures in Federal
Acquisition Regulation (FAR) Subpart 6.3,
“Other Than Full and Open Competition.”

What We Found
NAVAIR Lakehurst personnel generally
prepared and approved adequate sole-source
justifications and approvals (J&As) for other
than full and open competition and generally
documented compliance with additional FAR
requirements to support those sole-source
determinations for 23 contracts.



                                                    i
	
Report No. DODIG-2012-042 (Project No. D2011-D000CG-0228.000)      January 20, 2012

Recommendations Table

              Management                        Recommendations Requiring Comment
NAVAIR Lakehurst Site Integrator                None




                                         ii
	
Table of Contents

Introduction	                                                             1


      Objective                                                           1

      Background                                                          1

      Naval Air Systems Command Lakehurst                                 1

      Contracts Reviewed at NAVAIR Lakehurst                              2

      Review of Internal Controls at NAVAIR Lakehurst                     2


NAVAIR Lakehurst Contract Awards Were Properly Justified As Sole Source   3
	

      NAVAIR Lakehurst Adequately Supported Sole-Source Determinations    3

      NAVAIR Lakehurst Personnel Complied With Additional Regulations
	
           That Supported Sole-Source Determinations                       7

      Summary                                                             10 


Appendices

      A. 	Scope and Methodology                                           11 

             Universe and Sample Information                              11 

             Review of Documentation and Interviews                       12 

             Use of Computer-Processed Data                               12 

             Use of Technical Assistance                                  13 

             Prior Coverage                                               13 

      B. 	Federal Acquisition Regulation Criteria                         14 

             FAR Subpart 5.2, “Synopses of Proposed Contract Actions”     14 

             FAR Subpart 6.3, “Other than Full and Open Competition”      14 

             FAR Part 10, “Market Research”                               15 

      C. Noncompetitive Contracts Reviewed	                               16 

      D. Adequate Justification and Approvals	                            19 

      E. Market Research Conducted	                                       21 

Introduction
Objective
Our objective was to determine whether noncompetitive contract awards were properly
justified as sole source at Naval Air Systems Command (NAVAIR) Lakehurst, New
Jersey. This report is the first in a series of reports on DoD contracts awarded without
competition. See Appendix A for the scope and methodology and prior coverage related
to the objectives.

Background
Section 2304, title 10, United States Code, and Section 253, title 41, United States Code
require contracting officers to promote and provide for full and open competition when
soliciting offers and awarding contracts. Promoting competition in Federal contracting
presents the opportunity for significant cost savings. In addition, competitive contracts
can help improve contractor performance, prevent fraud, and promote accountability.
Contracting officers may use procedures other than full and open competition under
certain circumstances. However, each contract awarded without providing for full and
open competition must conform to policies and procedures in Federal Acquisition
Regulation (FAR) Subpart 6.3, “Other Than Full and Open Competition.”

FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. FAR Part 10, “Market Research,” prescribes policies and procedures
for conducting market research to arrive at the most suitable approach for acquiring,
distributing, and supporting supplies and services. FAR Subpart 5.2 “Synopses of
Proposed Contract Actions,” establishes policy to ensure agencies make notices of
proposed contract actions available to the public. Appendix B provides additional
explanation on FAR subpart 6.3, FAR part 10, and FAR subpart 5.2 requirements.

Naval Air Systems Command Lakehurst
NAVAIR’s Naval Air Warfare Center Aircraft Division conducts research, development,
test, evaluation, and engineering and fleet support of Navy and Marine Corps manned
and unmanned air systems, engines, avionics, surveillance systems, launch and recovery
mechanisms, and air traffic control and communications systems. The Naval Air Warfare
Center Aircraft Division is at three Navy sites. Naval Air Warfare Center Aircraft
Division Lakehurst (NAVAIR Lakehurst) is the Navy’s engineering support activity for
Aircraft Launch and Recovery Equipment and Naval Aviation Support
Equipment. NAVAIR Lakehurst is responsible for maintaining fleet support and
integrating modern technology for the equipment needed to launch, land, and maintain
aircraft from ships at sea. NAVAIR Lakehurst is the world’s only provider of full
spectrum support for aircraft launch, recovery, and support equipment systems for U.S.
and Allied Naval Aviation Forces at sea and Marine Corps Expeditionary Aviation
Forces ashore. According to the NAVAIR Lakehurst Site Integrator, NAVAIR
Lakehurst assures that aircraft operate safely and effectively from aircraft carriers, air-
capable ships, and expeditionary airfields worldwide.


                                            1
	
Contracts Reviewed at NAVAIR Lakehurst
Based on our Federal Procurement Data System - Next Generation queries, NAVAIR
Lakehurst contracting personnel awarded 1,026 C and D type contracts 1 with an
obligated value 2 of $1.2 billion during FY 2009 and FY 2010. Of the 1,026 contract
awards, NAVAIR Lakehurst contracting personnel awarded 120 noncompetitive
contracts, with an obligated value of $286.8 million, that met the scope 3 of our review.
We selected a nonstatistical sample of 30 noncompetitive contracts with an obligated
value of $73.4 million to review. We excluded seven contracts from our initial sample
because they were outside the scope of our audit: four contained foreign military sales
requirements, one was improperly coded in the Federal Procurement Data System - Next
Generation as a noncompetitive contract, another was partially competed, and the last
contract award was exempt from competition under the small business 8(a) program. In
total, we reviewed 23 contracts with an obligated value of about $42 million (the
combined base award, excluding options, was valued at approximately $50.1 million).
See Appendix C for specific noncompetitive contract awards reviewed.

Review of Internal Controls at NAVAIR Lakehurst
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. NAVAIR Lakehurst’s internal
controls over their processes for issuing noncompetitive contract awards were effective as
they applied to the audit objectives.




1
  Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “Contracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD,” and D type contracts as “Indefinite delivery contracts.”
2
  Data obtained in Federal Procurement Data System - Next Generation is reported on an individual action
basis (that is, single modification). As a result, we combined all actions identified for a given contract to
determine the number of contracts awarded during FY 2009 and FY 2010 and their respective obligated
amounts.
3
  Our scope was limited to actions issued on contracts that were awarded during FY 2009 and FY 2010.
Actions were coded as either a “noncompetitive delivery order” or “not competed” Federal Procurement
Data System - Next Generation and did not receive more than one offer as identified in Federal
Procurement Data System - Next Generation.



                                                      2
	
NAVAIR Lakehurst Contract Awards Were
Properly Justified As Sole Source
NAVAIR Lakehurst personnel adequately justified the use of other than full and open
competition on the justifications and approvals (J&As) for other than full and open
competition for all 23 contracts reviewed, valued at about $50.1 million. NAVAIR
Lakehurst personnel generally complied with FAR 6.303-2, “Content,” requirements in
the J&As, and for all 23 J&As, appropriately applied the authority cited and obtained
approval from the proper personnel before contract award. Further, NAVAIR Lakehurst
contracting personnel generally documented compliance with FAR part 10 and
FAR subpart 5.2 in the contract files to support sole-source determinations.

NAVAIR Lakehurst Adequately Supported Sole-Source
Determinations
NAVAIR Lakehurst personnel adequately supported the use of other than full and open
competition on the J&As for 23 contracts. NAVAIR Lakehurst personnel did not always
document all the required elements of FAR 6.303-2 in the J&As; however, personnel
provided enough information in the J&As to justify permitting other than full and open
competition. NAVAIR Lakehurst contracting personnel obtained approval from the
proper personnel for each of the 23 J&As before contract award. FAR 6.302,
“Circumstances Permitting Other Than Full and Open Competition,” lists the seven
exceptions permitting contracting without full and open competition. A contracting
officer must not begin negotiations for or award a sole-source contract without providing
full and open competition unless the contracting officer justifies the use of such action in
writing, certifies the accuracy and completeness of the justification, and obtains approval
of the justification.

NAVAIR J&A Preparation Processes
NAVAIR Instruction (NAVAIRINST) 4200.31E, “Justifications and
Approvals/Determinations and Findings for Procurement Actions Utilizing Other Than
Full and Open Competition,” July 24, 2006, establishes policies, procedures, and
responsibilities for preparing written J&As when a procurement is to be made using other
than full and open competition. The J&A must contain sufficient information to act as a
stand-alone document. Personnel from both the program and contracting office prepare
the J&As to include all requirements as outlined in the FAR and the Navy Marine Corps
Acquisition Regulation Supplement (NMCARS). Program office personnel are
responsible for:
    •	 completing the technical portion of the J&A, which includes the market research
        performed and the rationale of the sole-source authority cited and
    •	 providing and certifying all necessary data required to satisfy and support their
        recommendation to proceed with a procurement using other than full and open
        competition.




                                             3
	
The contract specialist is responsible for:
   •	 reviewing the technical portion to ensure the J&A contains sufficient facts and
       rationale to justify the use of the specific authority cited;
   •	 preparing the contracting portion, which includes administrative information, such
       as the issuing activity, status of the synopsis, and the contracting officer’s
       statement that the procurement’s estimated cost will be fair and reasonable; and
   •	 forwarding both portions of the J&A to the procuring contracting officer for
       signature and further processing, as required.

NAVAIRINST 4200.31E did not impose any further restrictions on the approval-level
thresholds for the 23 contracts reviewed, as established in FAR 6.304, “Approval of the
Justification.”

NAVAIR Lakehurst Generally Complied With J&A Content
Requirements
NAVAIR Lakehurst personnel generally documented compliance with content
requirements for the 23 J&As. Both FAR 6.303-2 and NMCARS 5206.303-2, “Content,”
identify the minimum information that must be included in a J&A. NMCARS requires
that the period of performance for the proposed acquisition, the total estimated dollar
value identified by fiscal year and appropriation, and an explanation of actions attempted
to make the immediate acquisition competitive and the cost/benefit analysis associated
with obtaining competition. NAVAIR Lakehurst program personnel included these
required elements in the technical portion of all 23 J&As. NAVAIR Lakehurst
personnel included all the required elements as outlined in FAR 6.303-2 in the J&As,
with the exception of 7 of the 23 J&As reviewed. NAVAIR Lakehurst personnel
provided enough information in each of the seven J&As to justify permitting other than
full and open competition, even though all of the FAR content requirements were not
met. See Table 1 for the specific contracts that did not fully meet the J&A content
requirements.

              Table 1. J&As Missing FAR Content Requirements
    Contract          Contracts       FAR Subpart        Market Research
                      Portion of     5.202 Exception    Requirements Not
                    J&A Missing         Not Cited        Fully Addressed
N68335-09-C-0398         Yes
N68335-09-C-0463         Yes
N68335-10-C-0111                           Yes
N68335-10-C-0386                           Yes
N68335-10-C-0269                                          Description not
                                                             included
N68335-09-C-0080                                          Description not
                                                             included
N68335-09-D-0088                                        Results not included



                                            4
	
NAVAIR Lakehurst Officials Generally Met J&A Content Requirements
With Minor Documentation Omissions
NAVAIR Lakehurst personnel generally met all of the FAR 6.303-2 content
requirements. NAVAIR Lakehurst personnel did not meet all of the content requirements
for four contracts due to minor documentation omissions. For two J&As, NAVAIR
Lakehurst personnel could not locate one page of the J&A, the contracting portion that
documents administrative FAR 6.303-2 content requirements. NAVAIR Lakehurst
contracting personnel did not cite, as required by FAR 6.303-2, the specific exception to
publicizing the proposed contract action on the J&A for two additional contracts
reviewed. FAR 6.303-2(b)(6) requires the J&A to include which exception under
FAR Subpart 5.202, “Exceptions,” applies when a contract notice is not publicized.
Neither J&A cited an exception from FAR subpart 5.202; however, each cited
FAR 6.302-2, “Unusual and Compelling Urgency,” as the reason why a synopsis was not
released. FAR 5.202(a)(2) is the exception that permits a proposed contract action under
the authority of FAR 6.302-2 to be awarded without issuance of a synopsis. We consider
this to be a documentation omission because the support is present in the J&A for the
exception to posting a synopsis even though the specific FAR 5.202 exception was not
stated. Each of these four instances resulted from documentation omissions and did not
result in inadequate sole-source determinations; therefore, we do not consider these
problems to be material and are not making a recommendation to address these problems.

NAVAIR Lakehurst Officials Generally Met J&A Market Research
Content Requirements
NAVAIR Lakehurst personnel adequately documented market research in 20 J&As, as
required by FAR 6.303-2. NAVAIR Lakehurst personnel partially documented market
research in the J&A as required by FAR 6.303-2 for 3 of the 23 J&As. FAR 6.303-2
requires the J&A to include a description and the results of the market research conducted
or, if market research was not conducted, a reason it was not conducted. NAVAIR
Lakehurst program personnel prepared and contracting personnel approved three J&As
that did not document either a description of the market research conducted or the
subsequent results of the market research, as required by FAR 6.303-2. However, for
each of the three contracts, the J&As explained that the Government did not own
adequate data rights to compete the procurement, and the contractors were unwilling to
sell the rights. NAVAIR Lakehurst contracting personnel adequately justified permitting
other than full and open competition for these three contracts; therefore, we do not
consider the problem material and are not making a recommendation to address the
missing information that would fully satisfy FAR 6.303-2 requirements. See Appendix D
for additional information on justifications and J&A content and approvals.

NAVAIR Lakehurst Appropriately Applied the Sole-Source
Authority Cited
NAVAIR Lakehurst personnel appropriately applied the cited authority permitting other
than full and open competition in each of the 23 J&As reviewed. Contracting personnel
awarded 20 contracts that cited the authority of FAR 6.302-1, “Only One Responsible
Source and No Other Supplies or Services Will Satisfy Agency Requirements.” For each



                                            5
	
of the 20 contracts, NAVAIR Lakehurst program personnel provided adequate rationale
in the J&A as to why only one contractor could provide the required product or service
and why only that product or service could meet the Government’s requirements.
NAVAIR Lakehurst contracting personnel awarded 16 of the 23 contracts for support
equipment or services that the Government did not own the proprietary data or rights to
compete the procurement.

NAVAIR Lakehurst contracting personnel awarded three contracts that cited the
authority of FAR 6.302-2, “Unusual and Compelling Urgency.” For each of the three
contracts, NAVAIR Lakehurst program personnel provided adequate rationale in the
J&A that supported the unusual and compelling urgency of the acquisition. For contract
N68335-10-C-0111, the J&A explained that due to failing equipment, x-ray film
processors were needed to ensure the x-rays used to identify cracks and other flight safety
problems could be processed at 15 sites currently without the ability to process the x-ray
film. FAR 6.302-2(c) and (d) impose further limitations on contract awards citing this
authority. Contracting personnel are required by FAR 6.302-2(c) to request offers from
as many potential sources as practicable. For each of the three contracts, NAVAIR
Lakehurst program personnel provided adequate rationale in the J&A that supported why
only one contractor and one product or service could have met the Government’s
requirements. For contract N68335-10-C-0111, the J&A explained that repair parts were
not available for the existing film processors, the units being purchased can work with all
the existing equipment, and the contractor was the only source that could meet the time
frames required to meet the Navy’s urgent requirement. Contracting personnel are
required by FAR 6.302-2(d) to limit the period of performance of the contract.
NAVAIR Lakehurst personnel listed in the J&As a total period of performance that did
not exceed the time limitations established in the FAR for each of the three contracts.
See Appendix D for additional information on justifications and J&A content and
approvals.

NAVAIR Lakehurst Officials Obtained Approval From the Proper
Officials for Sole-Source Contract Awards

NAVAIR Lakehurst contracting personnel obtained approval from the proper officials for
all 23 J&As reviewed. FAR 6.304 and NAVAIRINST 4200.31E defines the proper
approval authority at various thresholds for the estimated dollar value including options.
NAVAIRINST 4200.31E did not impose any restrictions on the approval-level thresholds
beyond those in the FAR. For FY 2009 and 2010, the FAR and local guidance authorized
the procuring contracting officer to provide the final approval for proposed contract
actions up to $550,000 and for the competition advocate of the procuring activity to
provide the final approval for proposed contract actions of more than $550,000 but not
exceeding $11.5 million. In addition to the contracting officer’s approval, the
Competition Advocate at NAVAIR Lakehurst approved all J&As for proposed contract
actions below $550,000, which is an approval level higher than what is required in both
FAR 6.304 and NAVAIRINST 4200.31E. The NAVAIR Lakehurst Competition
Advocate approved 22 of the 23 J&As that were issued for a proposed contract action of
up to but not exceeding $11.5 million. The Anti-Submarine Warfare, Special Mission


                                            6
	
Aircraft Department Head appropriately approved the remaining J&A with a proposed
contract action of $16 million, as required by FAR 6.304. NAVAIR Lakehurst
contracting personnel received Legal Counsel’s approval before submitting the J&A to
the approval authority for each of the 23 J&As reviewed, as required by
NAVAIRINST 4200.31E. See Appendix D for additional information on justifications
and J&A content and approvals.

NAVAIR Lakehurst Personnel Complied With Additional
Regulations That Supported Sole-Source
Determinations
NAVAIR Lakehurst personnel generally documented the market research efforts and
included adequate documentation in the contract files to support FAR part 10 and
FAR subpart 5.2 requirements. NAVAIR Lakehurst contracting personnel provided
sufficient information in the contract files to determine the specific steps NAVAIR
Lakehurst personnel took to conduct market research and the results. In addition,
NAVAIR Lakehurst contracting personnel included adequate documentation to support
that the proposed contract actions were properly synopsized in the Governmentwide
Point of Entry, which is accessed on the Internet at https://www.fedbizops.gov, with the
exception of including the required language outlined in FAR 5.207(c)(15) 4 in the
synopses. As a result, NAVAIR Lakehurst contracting personnel generally complied
with FAR part 10 and FAR subpart 5.2 requirements to support NAVAIR Lakehurst sole-
source determinations.

NAVAIR Lakehurst Appropriately Documented the Market
Research Efforts and the Results

NAVAIR Lakehurst personnel appropriately documented the market research conducted
or provided adequate justification in the contract file when market research was not
conducted for 22 of the 23 contracts reviewed. Contracting personnel included
documentation to show compliance with FAR part 10 in the contract file 5 to support 22
of the 23 sole-source determinations. FAR part 10 states that agencies should document
the results of market research in a manner appropriate to the size and complexity of the
acquisition. FAR 10.002, “Procedures,” states the extent of market research will vary,
depending on factors such as urgency, estimated dollar value, complexity, and past
experience. NAVAIR Lakehurst personnel performed market research techniques
identified in FAR part 10 for 16 of the 22 contract awards that had adequate support
documented in the contract file. For example, NAVAIR Lakehurst personnel conducted
internet and database inquiries, contacted knowledgeable individuals in Government and


4
  Effective May 31, 2011, the Federal Acquisition Regulation Circular contained updates that moved the
requirements in FAR 5.207(c)(15) to FAR 5.207(c)(16).
5
  We considered documentation sufficient to meet FAR part 10 requirements if the specific steps taken to
conduct market research and the subsequent results were documented or adequate rationale for not
conducting market research was documented.


                                                    7
	
industry, or reviewed past procurements for the 16 sole-source awards that had estimated
values ranging from $104,000 to $16 million. NAVAIR Lakehurst contracting personnel
documented the techniques performed and the subsequent results in each of the
16 contract files.

NAVAIR Lakehurst personnel did not conduct market research in 6 of the 22 instances;
however, contracting personnel provided adequate documentation in the contract file to
support those determinations. For example, NAVAIR Lakehurst personnel did not
conduct market research for contract N68335-09-C-0077 because procuring an additional
eight water chiller units from any other company would result in fielding two different
configurations. According to the Navy, fielding multiple configurations involves
extensive amounts of changes to fleet logistics and engineering data that would cost more
than $250,000. NAVAIR Lakehurst program personnel stated in the J&A that it would
not be cost-effective for the Government to maintain multiple configurations for a final
buy estimated at $400,000. NAVAIR Lakehurst contracting personnel did not include
documentation to show compliance with FAR part 10 in the contract file to support 1 of
the 23 sole-source determinations, specifically contract N68335-09-C-0056.

Contract N68335-09-C-0056
NAVAIR Lakehurst personnel conducted market research according to the J&A, but
contracting personnel did not include adequate documentation in the contract file for
contract N68335-09-C-0056 to support FAR part 10 requirements. NAVAIR Lakehurst
program personnel included a discussion of the market research conducted in the J&A,
but the discussion did not identify the types of internet searches conducted or what
internet sites were searched to determine that only one contractor could meet the
Government’s requirements. NAVAIR Lakehurst contracting personnel did not include
any additional information on market research in the contract file. Although NAVAIR
Lakehurst contracting personnel did not document compliance with FAR part 10 in the
contract file for contract N68335-09-C-0056, the exception cited for other than full and
open competition was supported. NAVAIR Lakehurst contracting personnel awarded the
acquisition citing the exception of “only one responsible source and no other supplies or
services will satisfy agency requirements.” The cited exception was appropriate because
the acquisition was for technical data to support V-22 MV and CV squadrons scheduled
for deployment. Only the original equipment manufacturer would be able to provide the
proprietary data required to operate and maintain the fleet when deployed. This instance
resulted from documentation omissions and did not result in inadequate sole-source
determinations; therefore, we do not consider the problem to be material and are not
making a recommendation.

Processes at NAVAIR Lakehurst Facilitate Market Research Efforts
NAVAIR Lakehurst officials have processes in place to help ensure that market research
is conducted. According to the NAVAIR Lakehurst Small Business Specialist, the Small
Business Office conducted market research training once a quarter to help ensure that
adequate market research was performed. Training covered multiple areas, such as who
was responsible for conducting market research, when market research should be
conducted, and identified common techniques used. However, not all processes to


                                            8
	
promote adequate market research were documented or required. NAVAIR Lakehurst
contracting personnel documented the steps taken and the results of market research on a
checklist in the contract files for 10 of the 23 contracts reviewed. The checklist
documented the overall steps that were conducted as well as the results. For example, the
checklist identified if Government and industry experts were contacted and, in some
cases, provided the individual’s contact information, what databases were queried, and
what trade journals were researched and the results. However, NAVAIR Lakehurst
officials did not require contracting personnel to include a dated market research
checklist in the contract files to help ensure that the market research performed was
current and relevant to the procurement. In general, adequate market research promotes
increased competition and lower costs to fill warfighters’ needs for a given program. See
Appendix E for additional information on the market research NAVAIR Lakehurst
personnel conducted.

NAVAIR Lakehurst Generally Complied With Synopsis
Requirements

NAVAIR Lakehurst contracting personnel complied with requirements when synopsizing
the 20 proposed contract actions that required a presolicitation notice, with the exception
of including the required language outlined in FAR 5.207(c)(15). 6 FAR 5.2, “Synopses
of Proposed Contract Actions,” requires contracting officers to transmit a notice to the
Governmentwide Point of Entry for each proposed contract action expected to exceed
$25,000, other than those covered by an exception in FAR 5.202, “Exceptions.” The
primary purposes of the notice are to improve small business access to acquisition
information and enhance competition by identifying contracting and subcontracting
opportunities. In accordance with FAR 5.202(a)(2), 3 of the 23 contracts reviewed did
not contain a synopsis. Contracting officers are exempted from issuing a synopsis under
FAR 5.202(a)(2) when the proposed contract action is made under the conditions
described in FAR 6.302-2, “Unusual and Compelling Urgency,” and the Government
would be seriously injured if the agency complies with the publicizing and response
times specified in the FAR. NAVAIR Lakehurst contracting personnel included the
synopsis that was posted to the Governmentwide Point of Entry, which detailed the notice
of the proposed contract action, in each of the other 20 contract files.

NAVAIR Lakehurst contracting personnel generally adhered to the time frames as
established in FAR subpart 5.2 and included all applicable elements in the synopsis, with
the exception of including the required language outlined in FAR 5.207(c)(15).
FAR 5.207(c)(15) requires the synopsis for all noncompetitive contract actions to include
a statement that all responsible sources may submit a capability statement, bid, proposal,
or quotation, “which shall be considered by the agency.” By not including this required
statement in the synopsis, NAVAIR Lakehurst contracting personnel did not encourage
potential sources to answer the synopsis for 13 of the 20 contract actions that were


6
  Effective May 31, 2011, the Federal Acquisition Regulation Circular contained updates that moved the
requirements in FAR 5.207(c)(15) to FAR 5.207(c)(16).


                                                    9
	
required to be synopsized. In 9 of the 13 instances, NAVAIR Lakehurst contracting
personnel did not indicate that the agency would review any contractor submissions
received. In the remaining four instances, NAVAIR Lakehurst contracting personnel did
not include a statement in the synopsis that addressed any of the FAR 5.207(c)(15)
required language. We are not making a recommendation on this issue because NAVAIR
Lakehurst personnel included support within each of the 13 J&As to show that
competition could not be reasonably anticipated. See Table 2 for the 13 contract awards
that did not comply with FAR 5.207(c)(15) requirements.
       Table 2. Contracts Not In Compliance With FAR 5.207(c)(15) Requirements
      Contract          Synopsis did not indicate that the    Synopsis did not contain
                          agency will review contractor         required language
                               proposals received
N68335-09-C-0139                        √
N68335-09-C-0056                                                         √
N68335-09-C-0124                                                         √
N68335-09-C-0398                        √
N68335-10-C-0269                        √
N68225-09-C-0346                        √
N68335-09-C-0379                                                         √
N68335-09-C-0149                                                         √
N68335-09-C-0080                        √
N68335-09-C-0077                        √
N68335-09-C-0301                        √
N68335-09-C-0463                        √
N68335-09-D-0088                        √


Summary
NAVAIR Lakehurst personnel adequately justified the use of other than full and open
competition on the J&As for all 23 contracts reviewed. NAVAIR Lakehurst personnel
generally complied with FAR 6.303-2 requirements in the J&As and, for all 23 J&As,
appropriately applied the authority cited and obtained approval from the proper personnel
before contract award. Further, NAVAIR Lakehurst contracting personnel generally
documented compliance with FAR part 10 and FAR subpart 5.2 in the contract files to
support sole-source determinations. We are not making recommendations because we do
not consider the problems identified to be material.




                                             10
	
Appendix A. Scope and Methodology
We conducted this performance audit from May 2011 through January 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our scope was limited to noncompetitive contract awards during FY 2009 and FY 2010
to determine whether Naval Air Systems Command (NAVAIR) Lakehurst
noncompetitive contract awards were properly and adequately justified as sole-source.
We did not review contracts that were awarded for national security purposes, foreign
military sales, classified contracts, or contracts that were improperly coded in the Federal
Procurement Data System - Next Generation (FPDS-NG) as noncompetitive. In addition,
we did not review contracts that were not truly sole source such as contracts that were
competitive one bids or contracts set aside to develop small businesses.

In July 2011, DoD Office of Inspector General management decided the audit teams
would issue site reports under individual subprojects from the initial project. In
October 2011, we reannounced the revised audit approach of issuing separate audit
reports for each audit site as well as the revised audit objective to determine whether
DoD noncompetitive contract awards were properly justified as sole source. We
removed the specific objective to determine whether negotiated amounts were fair and
reasonable.

Universe and Sample Information
We used the FPDS-NG to identify noncompetitive contract actions issued by Military
Services and Defense agencies during FY 2009 and FY 2010. The queries were limited
to actions issued on contracts that were awarded during FY 2009 and FY 2010 and coded
as a “noncompetitive delivery order” or “not competed” in FPDS-NG. The queries also
excluded contract actions that received more than one offer as identified in FPDS-NG.
We selected the four DoD Components with the highest dollar value of awards,
specifically, the Army, Navy, Air Force, and the Defense Logistics Agency to identify
specific audit locations. We focused our site selection on three sites for the Department
of the Navy that awarded 20 or more C and D type noncompetitive contracts and
obligated approximately $200 million or more during FY 2009 and FY 2010. Our site
selection excluded sites that were visited during the recent Government Accountability
Office review on noncompetitive contract awards. In addition, we reviewed reports the
DoD Office of Inspector General, Acquisition and Contract Management Directorate,
issued from FY 2009 to April 2011 that covered acquisition and contracting issues and
excluded sites that have been visited on numerous occasions.

The initial data obtained from FPDS-NG resulted in a universe of 120 applicable
contracts for NAVAIR Lakehurst. We requested 30 of the 120 contracts to review during
our site visit to Lakehurst, New Jersey. We chose our sample by using many different


                                            11
	
factors to create a diverse, nonstatistical sample. We selected 30 contracts based on
different dollar amounts, products, services, and contract types. However, we did not
review contracts within the 30 selected that were awarded for national security purposes,
foreign military sales, classified contracts, or contracts that were improperly coded in the
FPDS-NG as noncompetitive. In addition, we did not review contracts that were not truly
sole source such as contracts that were competitive one bids or contracts set aside to
develop small businesses. In total, we excluded 7 of the 30 contracts selected. We
excluded:
    •	 four contracts because they included foreign military sales requirements on the
        base contract award,
    •	 one contract was excluded because it was exempt from competition under the
        small business 8(a) program,
    •	 another contract was excluded because it was awarded under limited competition,
        and
    •	 the last contract was miscoded as noncompetitive in FPDS-NG and was competed
        under a broad agency announcement before award.

Based on these exclusions, we reviewed 23 of the 30 contracts requested. See
Appendix C for additional details on the noncompetitive contracts we reviewed.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:
  •	 FAR subpart 5.2 “Synopses of Proposed Contract Actions”;
  •	 FAR subpart 6.3, “Other Than Full and Open Competition”;
  •	 FAR part 10, “Market Research”;
  •	 Defense Federal Acquisition Regulation Supplement, 204.7003, “Basic PII
	
      Number”;
	
  •	 NMCARS 5206.3, “Other Than Full and Open Competition”; and
  •	 NAVAIRINST 4200.31E, “Justifications and Approvals/Determinations and
      Findings for Procurement Actions Utilizing Other Than Full and Open
      Competition,” July 24, 2006.

We interviewed contracting and oversight officials at NAVAIR Headquarters, Patuxent
River, Maryland, to obtain command policy and guidance related to the audit objectives.
We interviewed contracting personnel at NAVAIR Lakehurst, New Jersey, to discuss
noncompetitive contract awards and to obtain information regarding the noncompetitive
contract files identified in our sample, specifically about the J&A and market research.
We also interviewed the Competition Advocate and the Small Business Specialist at
NAVAIR Lakehurst to gain an understanding of their responsibilities and roles in
noncompetitive contract awards.

Use of Computer-Processed Data
We relied on computer-processed data from the FPDS-NG to establish the initial universe
for this audit by identifying noncompetitive contract actions issued by Military Services


                                            12
	
and Defense agencies. We also used the data from the FPDS-NG to help determine the
contracting organizations to visit and to perform the nonstatistical sample selection. In
addition, we used the Electronic Document Access database to obtain contract
documentation, such as the contract and modifications to the contract before our site visit
to NAVAIR Lakehurst. To assess the accuracy of the computer-processed data, we
verified the FPDS-NG and Electronic Document Access data against official records at
the contracting activity. We determined that data obtained through the Electronic
Document Access database was sufficiently reliable to accomplish our audit objectives
when compared with contract records. We determined that there was one miscoding in
the data reviewed from FPDS-NG when compared with contract documentation;
however, we used FPDS-NG only to identify the universe, to help determine the
contracting organizations to visit, and to identify our nonstatistical sample.

Use of Technical Assistance
We held discussions with personnel from the Department of Defense Office of Inspector
General’s Quantitative Methods and Analysis Division. We determined that we would
use FPDS-NG data to select a nonstatistical sample of contracting activities and then use
FPDS-NG data to select a nonstatistical sample of noncompetitive contracts to review.
During our site visit, we worked with NAVAIR Lakehurst contracting personnel to verify
that the selected contracts met the scope limitations of our review and to identify
additional contracts that did not meet the selection criteria. Our nonstatistical sample was
limited to specific contracts, and our results should not be projected across other
NAVAIR-issued or Navy-issued contracts.

Prior Coverage
During the last 5 years, the Government Accountability Office and the Department of the
Army have issued two reports discussing noncompetitive contract awards. Unrestricted
Government Accountability Office reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted Army reports can be accessed from .mil and gao.gov
domains over the Internet at https://www.aaa.army.mil/.

Government Accountability Office
Government Accountability Office Report No. GAO-10-833, “Opportunities Exist to
Increase Competition and Assess Reasons When Only One Offer Is Received,”
July 26, 2010

Army
Army Audit Agency Report No. A-2011-0002-ALC, “Extent of Competition in Army
Contracting,” October 12, 2010




                                            13
	
Appendix B. Federal Acquisition Regulation
Criteria
FAR Subpart 5.2, “Synopses of Proposed Contract Actions”
FAR 5.201, “General,” requires agencies to provide a synopsis of proposed contract
actions for the acquisition of supplies and services. The contracting officer must submit
the synopsis to the Governmentwide Point of Entry that can be accessed on the Internet at
https://www.fedbizopps.gov. FAR 5.202, “Exceptions,” lists circumstances when the
contracting officer does not need to submit a synopsis, such as when a contract action
cites an unusual and compelling urgency as the exception to full and open competition.
In addition, FAR 5.203, “Publicizing and Response Time,” requires the synopsis to be
published for at least 15 days before issuing a solicitation or proposed contract action that
the Government intends to solicit and negotiate with only one source under the authority
of FAR 6.302. However, the contracting officer may establish a shorter period of
issuance for commercial items. FAR 5.207, “Preparation and Transmittal of Synopses,”
requires each synopsis submitted to the Governmentwide Point of Entry to include certain
data elements as applicable, such as the date of the synopsis, the closing response date, a
proposed solicitation number, a description, and the point of contact or contracting
officer.

FAR Subpart 6.3, “Other Than Full and Open Competition”
FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. Contracting without full and open competition is a violation of statute,
unless permitted by an exception provided in FAR 6.302, “Circumstances Permitting
Other Than Full and Open Competition.” FAR 6.302 lists the seven exceptions for
contracting without full and open competition:
    •	 FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
       Will Satisfy Agency Requirements;”
    •	 FAR 6.302-2, “Unusual and Compelling Urgency;”
    •	 FAR 6.302-3, “Industrial Mobilization; Engineering, Developmental, or Research
       Capability; or Expert Services;”
    •	 FAR 6.302-4, “International Agreement;”
    •	 FAR 6.302-5, “Authorized or Required by Statute;”
    •	 FAR 6.302-6, “National Security;” and
    •	 FAR 6.302-7, “Public Interest.”

A contracting officer must not begin negotiations for or award a sole-source contract
without providing full and open competition unless the contracting officer justifies the
use of such action in writing, certifies the accuracy and completeness of the justification,
and obtains approval of the justification. FAR 6.303-2, “Content,” requires each
justification to contain sufficient facts and rationale to justify the use of the authority
cited. At a minimum each justification must contain:
    •	 the name of the agency and contracting activity and identification of the document
         as a “Justification for other than full and open competition;”


                                             14
	
   •	 a description of the action being approved;
   •	 a description of the supplies or services required to meet the agency’s needs,
      including the estimated value;
   •	 the statutory authority permitting other than full and open competition;
   •	 a demonstration that the contractor’s unique qualifications or the nature of the
      acquisition requires the use of the authority cited;
   •	 a description of the efforts made to ensure offers are submitted from as many
      sources as practicable, including whether a notice was or will be publicized;
   •	 the contracting officer’s determination that the cost to the Government will be fair
      and reasonable;
   •	 a description and the results of the market research conducted or, if market
      research was not conducted, a reason it was not conducted;
   •	 any other facts supporting the use of other than full and open competition;
   •	 a listing of sources that expressed written interest in the acquisition;
   •	 a statement of the actions the agency may take to overcome any barriers to
	
      competition before a subsequent acquisition; and
	
   •	 the contracting officer’s certification that the justification is accurate and
	
      complete to the best of their knowledge and belief.
	

FAR 6.304, “Approval of the Justification,” identifies the person responsible for
approving the J&A based on the value of the proposed contract. The thresholds
discussed are the thresholds that were in place during the scope of the audit. The
contracting officer approves the J&A for a proposed contract not exceeding $550,000.
The competition advocate approves the J&A for a proposed contract of more than
$550,000 but not exceeding $11.5 million. A general or flag officer, if a member of the
military, or a civilian in a position above GS-15 under the general schedule, approves the
J&A for a proposed contract of more than $11.5 million but not exceeding $78.5 million.
The senior procurement executive of the agency approves the J&A for a proposed
contract of more than $78.5 million.

FAR Part 10, “Market Research”
FAR part 10 prescribes policies and procedures for conducting market research to arrive
at the most suitable approach for acquiring, distributing, and supporting supplies and
services. Agencies are required to conduct market research appropriate to the
circumstance before soliciting offers for acquisitions with an estimated value over the
simplified acquisition threshold. Agencies are required to use the results of market
research to determine if there are appropriate sources or commercial items capable of
satisfying the agency’s requirements. The extent of market research the agencies conduct
varies, depending on factors such as urgency, estimated dollar value, complexity, and
past experience. Agencies use market research techniques, such as contacting
knowledgeable individuals in Government and industry, reviewing results of recent
market research, publishing formal requests for information, querying databases,
participating in on-line communication, obtaining source lists of similar items, and
reviewing available product literature. Agencies should document the results of market
research in a manner appropriate to the size and complexity of the acquisition.



                                            15
	
                                Appendix C. Noncompetitive Contracts Reviewed
	
             Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                Product
             Contract                                                                                     Award       Contract                      Contract
                                  or                               Description                                                   Authority Cited
             Number                                                                                        Date        Type                          Value*
                                Service
   1     N68335-09-C-0139        Product                        114 6U transit cases                     2/10/2009      FFP        FAR 6.302-1     $129,189.36
                                               An Integrated Logistics Support package for the Diesel
   2     N68335-09-C-0056        Product
                                                   and Electric Portable Hydraulic Power Supply
                                                                                                         10/15/2008     FFP        FAR 6.302-1     $649,511.00

                                               Support for software changes to the Modified Analog
   3     N68335-09-C-0124        Product      Capability and Bus Test Instrument Kits installed in the   1/27/2009     CPFF        FAR 6.302-1     $682,769.76
                                                    Consolidated Automated Support System

   4     N68335-10-C-0111        Product                  15 NOVA Wet Film Processors                    1/12/2010      FFP        FAR 6.302-2     $193,545.00
                                               2 pilot production units and up to 60 Time and Altitude
   5     N68335-10-D-0017        Product        Test Sets per program year, including associated data    4/30/2010      FFP        FAR 6.302-1     $8,327,024.10
                                                                     and training
                                                   Maximum of 16 Portable Acoustic Sonobuoy
   6     N68335-09-C-0398        Product
                                                             Simulator Test Sets
                                                                                                         8/12/2009      FFP        FAR 6.302-1     $511,500.00

                                                  10 MG3692B Synthesized Generators for the
   7     N68335-09-C-0459        Product      Reconfigurable Transportable Consolidated Automated        9/25/2009      FFP        FAR 6.302-1     $314,288.00
                                                              Support System units
                                                The calibration of ABE Adapter Sets to support the
   8     N68335-10-C-0149        Product         AH-1W. The quantities are 32 each in Fiscal Year        2/22/2010      FFP        FAR 6.302-1     $284,864.00
                                                2010, and an option for 30 each in Fiscal Year 2011
   9     N68335-10-D-0020        Product       Maximum quantity of 580 Type “E” I/O Circuit Cards        7/28/2010      FFP        FAR 6.302-1     $2,970,059.42
Acronyms, footnotes, and definitions used throughout Appendix C are defined on the final page of Appendix C.




                                                                                         16
	
                        Appendix C. Noncompetitive Contracts Reviewed (cont’d)
             Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                Product
             Contract                                                                                     Award       Contract                      Contract
                                  or                               Description                                                   Authority Cited
             Number                                                                                        Date        Type                          Value
                                Service
                                               Design and installation of a state-of-the-art Automated
                                               Antenna Measurement System and integration into the
  10     N68335-10-C-0269        Product         existing 959Spectrum software and non-obsolete          3/16/2010      FFP        FAR 6.302-1      $456,795.00
                                                hardware at the NAWCAD Webster Field Outdoor
                                                                   Antenna Range

                                               46 Rynglok Tool Kits, with the option for an additional
  11     N68335-09-C-0346        Product
                                                            quantity of up to 98 units
                                                                                                          8/4/2009      FFP        FAR 6.302-1      $460,644.00

  12     N68335-10-C-0570        Product      2 Mechanical Wrenches with an option for 2 more units      9/24/2010      FFP        FAR 6.302-1      $51,739.00
                                                33 Video Monitor Card Software Load Kits for the
                                              Alternate Source Display Operational Test Program Set
  13     N68335-09-C-0379        Product
                                                 Upgrade, 2 Smart Multi-Function Displays, and 1
                                                                                                         8/31/2009      FFP        FAR 6.302-1     $2,123,865.84
                                                    Common Avionics Multi-Function Display
                                                 Specialized Test Equipment to perform depot-level
  14     N68335-09-C-0149        Product               repairs to identified Common Cockpit              6/25/2009      FFP        FAR 6.302-1     $13,819,474.00
                                                            Avionics Suite Components
                                                2 Tube Coordination Measurement System, Arm and
  15     N68335-10-C-0156        Product
                                                                  Arm Adapters
                                                                                                         1/27/2010      FFP        FAR 6.302-1      $126,225.00

  16     N68335-09-C-0080        Product                    15 Butterfly Shutoff Valves                  1/22/2009      FFP        FAR 6.302-1      $196,187.10
                                               4 Water Chiller Units with an option for an additional
  17     N68335-09-C-0077        Product
                                                             quantity of up to 4 units
                                                                                                         11/19/2008     FFP        FAR 6.302-1      $150,472.00

Acronyms, footnotes, and definitions used throughout Appendix C are defined on the final page of Appendix C.




                                                                                          17
	
                        Appendix C. Noncompetitive Contracts Reviewed (cont’d)
              Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                Product
              Contract                                                                                    Award       Contract                        Contract
                                  or                               Description                                                     Authority Cited
              Number                                                                                       Date        Type                            Value
                                Service
  18     N68335-10-C-0311         Product          16 reels of 1 1/4” Wire Rope, 3,000 feet per reel      5/4/2010       FFP         FAR 6.302-2      $332,160.00
                                                      11 Multi-Analog Capability modification
  19     N68335-09-C-0301         Product
                                                            kits and software licensing
                                                                                                          6/2/2009       FFP         FAR 6.302-1     $2,506,000.01

                                                   1 Gas Turbine Starting System Portable Trolley,
  20     N68335-09-C-0463         Product      including a tailored logistics support package and other   9/25/2009      FFP         FAR 6.302-1      $460,118.68
                                                                   deliverable data
                                                Procure and/or design, develop, and manufacture the
                                              hardware, logistics support, spares, commercial technical
  21     N68335-09-D-0088         Product
                                               manuals, and associated data related to the manufacture
                                                                                                          12/9/2008      FFP         FAR 6.302-1     $11,000,000.00
                                                    and sustainment of the AMPHIB Low Light
  22     N68335-10-C-0386         Service       Contractor Support Services for the Test Pilot School     6/14/2010     CPFF         FAR 6.302-2      $379,174.00
                                                  Joint Repair and Support for the Reconfigurable
                                               Transportable Consolidated Automated Support System                    CPFF, FFP,
  23     N68335-09-C-0100         Service
                                                and the Self-Maintenance Automatic Test/Calibration
                                                                                                          3/9/2009
                                                                                                                       and T&M
                                                                                                                                     FAR 6.302-1     $3,996,373.00
                                                            Operational Test Program Set
         Total Reviewed                                                                                                                              $50,121,978.27
*The contract value is the base award value excluding options or the maximum ceiling price at award.

CPFF                Cost-Plus-Fixed-Fee
FAR 6.302-1         Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency Requirements
FAR 6.302-2         Unusual and Compelling Urgency
FFP                 Firm-Fixed-Price
T&M                 Time-and-Materials




                                                                                           18
	
                 Appendix D. Adequate Justification and Approvals
	
     Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                                               Authority Cited Appropriately     Justification &Approval
        Contract Number      Content Requirements Met
                                                                          Applied              Approved By Proper Personnel
1        N68335-09-C-0139               √                                   √                               √

2        N68335-09-C-0056               √                                   √                               √

3        N68335-09-C-0124               √                                   √                               √

4        N68335-10-C-0111                                                   √                               √

5        N68335-10-D-0017               √                                   √                               √

6        N68335-09-C-0398                                                   √                               √

7        N68335-09-C-0459               √                                   √                               √

8        N68335-10-C-0149               √                                   √                               √

9        N68335-10-D-0020               √                                   √                               √

10       N68335-10-C-0269                                                   √                               √

11       N68335-09-C-0346               √                                   √                               √

12       N68335-10-C-0570               √                                   √                               √

13       N68335-09-C-0379               √                                   √                               √

14       N68335-09-C-0149               √                                   √                               √




                                                        19
	
           Appendix D. Adequate Justification and Approvals (cont’d)
     Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                                               Authority Cited Appropriately     Justification & Approval
        Contract Number      Content Requirements Met
                                                                          Applied              Approved By Proper Personnel
15       N68335-10-C-0156               √                                   √                               √

16       N68335-09-C-0080                                                   √                               √

17       N68335-09-C-0077               √                                   √                               √

18       N68335-10-C-0311               √                                   √                               √

19       N68335-09-C-0301               √                                   √                               √

20       N68335-09-C-0463                                                   √                               √

21       N68335-09-D-0088                                                   √                               √

22       N68335-10-C-0386                                                   √                               √

23       N68335-09-C-0100               √                                   √                               √




                                                        20
	
                                           Appendix E. Market Research Conducted
	
              Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                   Estimated
                                                                                                                                                                    Market
                                  Value on the
             Contract                                                                                                                          Supporting          Research
                                  Justification            Specific Steps Performed                 Results of Market Research
             Number                                                                                                                           Documentation       Considered
                                 and Approval
                                                                                                                                                                   Adequate
                                     (J&A)
                                                                                                  Neither site was able to provide pricing
                                                        Internet search of GSA Advantage and
                                                                                                      and the contractor was the only
   1     N68335-09-C-0139           $173,280.00         FedStock and reviewed past history and
                                                                                                  manufacturer able to meet all the project
                                                                                                                                                    J&A              Yes
                                                               additional manufacturers
                                                                                                                requirements
                                    $500,000.00
                                                                                                   The contractor has proprietary rights to
                                     Addendum           Internet search conducted, but specific
   2     N68335-09-C-0056                                                                         the drawings and only source capable of           J&A              Yes1
                                 increased value to        sites queried were not identified
                                                                                                         providing the required data
                                    $649,511.00
   3     N68335-09-C-0124          $1,050,000.00          Market research was not conducted2                       None                             J&A              Yes

   4     N68335-10-C-0111           $225,000.00           Market research was not conducted2                       None                             J&A              Yes
                                                                                                                                              J&A and Request
   5     N68335-10-D-0017          $4,700,000.00               Request for Information                  No responses were received
                                                                                                                                               for Information
                                                                                                                                                                     Yes

                                                                                                  The contractor was the only responsible
                                                         Internet search of Central Contractor     source at this time. The Government
                                                         Registration, Haystack, and the Naval    Subject Matter Expert stated the system      Market research
   6     N68335-09-C-0398           $761,500.00
                                                         Aviation Inventory Control Point and        currently in use is scheduled to be      checklist and J&A
                                                                                                                                                                     Yes
                                                         subject matter experts were contacted     replaced by new units that will not go
                                                                                                         into production until 2010
                                                                                                  Technical analysis showed that no other
                                                                                              2     source would be able to provide the
   7     N68335-09-C-0459           $314,288.00           Market research was not conducted
                                                                                                       spares necessary without the
                                                                                                                                                    J&A              Yes
                                                                                                          technical data package
Footnotes used throughout Appendix E are defined on the final page of Appendix E.



                                                                                          21
                                  Appendix E. Market Research Conducted (cont’d)
              Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                                                                                                                                                     Market
                                   Estimated
             Contract                                                                                                                           Supporting          Research
                                  Value on the              Specific Steps Performed                  Results of Market Research
             Number                                                                                                                            Documentation       Considered
                                     J&A
                                                                                                                                                                    Adequate
                                                       Internet search of Google, AltaVista, and      No sources were found. The results
                                                                                                                                                Market research
   8     N68335-10-C-0149           $800,000.00           Lycos. Subject matter experts were        indicated that only one contractor could
                                                                                                                                               checklist and J&A
                                                                                                                                                                      Yes
                                                                       consulted                         meet the Government’s needs
                                                          Internet search of GSA Advantage                                                      Market research
   9     N68335-10-D-0020          $3,120,000.00
                                                                     and FedStock
                                                                                                      The contractor is the sole provider
                                                                                                                                               checklist and J&A
                                                                                                                                                                      Yes

                                                                                                    The contractor was the only source and
                                                       Internet search of Google. Subject matter    no other system is compatible. It would
                                                                                                                                                Market research
  10     N68335-10-C-0269           $450,000.00        experts, industry experts, and contracting    cost a significant amount of money to
                                                                                                                                               checklist and J&A
                                                                                                                                                                      Yes
                                                             manufacturers were contacted           replace existing software that is higher
                                                                                                            than the proposed option
                                                           Internet search Central Contractor
                                                         Registration, Haystack, and the Naval      No other sources were identified. Other
                                                                                                                                               Market research
  11     N68335-09-C-0346          $1,534,687.00        Aviation Inventory Control Point. J&A       vendors identified mainly aircraft parts
                                                                                                                                               checklist & J&A
                                                                                                                                                                      Yes
                                                        identifies additional websites. Previous          and fabricating capabilities
                                                                   buys were reviewed
                                                          Internet search of Dogpile, Yahoo,
                                                                                                    The contractor was the only source and
                                                        Google, Lycos, etc. E-mail discussions
                                                                                                    as the original equipment manufacturer,     Market research
  12     N68335-10-C-0570           $104,000.00           with the contractor, subject matter
                                                                                                       and it was the only source that can     checklist and J&A
                                                                                                                                                                      Yes
                                                         experts, trade journals, and previous
                                                                                                              fulfill the requirement
                                                               contracts were reviewed
                                                                                                      The contractor will not release the
                                                        Discussions with subject matter experts
  13     N68335-09-C-0379          $3,000,000.00
                                                                  and the contractor
                                                                                                    proprietary data, which makes them the           J&A              Yes
                                                                                                              only source capable.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.




                                                                                          22
	
                                  Appendix E. Market Research Conducted (cont’d)
              Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                                                                                                                                                      Market
             Contract           Estimated Value                                                                                                 Supporting           Research
                                                             Specific Steps Performed                Results of Market Research
             Number               on the J&A                                                                                                   Documentation        Considered
                                                                                                                                                                     Adequate
                                                                                                    No sources were identified to provide
                                                               Industry and subject matter                                                      Market research
  14     N68335-09-C-0149          $16,000,000.00
                                                                 experts were contacted
                                                                                                    requirement or integrate the different
                                                                                                                                               checklist and J&A
                                                                                                                                                                       Yes
                                                                                                                 subsystem
                                                                                                    No drawings or technical data were          Market research
                                                          Internet search of Google, Lycos, and
                                                                                                     available for the Peculiar Support          checklist and
  15     N68335-10-C-0156           $134,940.00          ThomasNet. Subject matter experts were
                                                                                                   Equipment item. No other sources were       market research on
                                                                                                                                                                       Yes
                                                                        contacted
                                                                                                     available to meet the requirements              J&A
                                                                                                    The contractor was the only available
                                     $175,000             A comparison of specifications and a        source with software and the only        J&A and Business
  16     N68335-09-C-0080       Addendum increased            review of past procurements          qualifying source on the drawings. The         Clearance            Yes
                                 value to $475,000                  was performed                    Government does not own the data            Memorandum
                                                                                                     necessary to manufacture the valve
                                                                                                      Fielding two configurations would
                                                                                               2      involve a lot of money and would
  17     N68335-09-C-0077           $400,000.00            Market research was not conducted
                                                                                                   involve extensive amounts of changes in
                                                                                                                                                     J&A               Yes
                                                                                                        logistics and engineering data
                                                                                                   Urgent need, only the one contractor can
                                                                                                                                                Market research
  18     N68335-10-C-0311           $322,160.00              Past performance was reviewed         meet the need, and the other contractor
                                                                                                                                                checklist & J&A
                                                                                                                                                                       Yes
                                                                                                             is consistently late

                                                                                                    The contractor was the only company
  19     N68335-09-C-0301          $2,500,000.00           Market research was not conducted2                                                        J&A               Yes
                                                                                                   that can provide the supplies or services

Footnotes used throughout Appendix E are defined on the final page of Appendix E.




                                                                                         23
                                     Appendix E. Market Research Conducted (cont’d)
                 Noncompetitive Contracts Awarded by NAVAIR Lakehurst Contracting Division From FY 2009-FY 2010
                                                                                                                                                                         Market
                Contract           Estimated Value                                                                                                  Supporting          Research
                                                                Specific Steps Performed                  Results of Market Research
                Number               on the J&A                                                                                                    Documentation       Considered
                                                                                                                                                                        Adequate

                                                              Internet searches and subject matter      No comparable support equipment could
     20     N68335-09-C-0463           $495,000.00
                                                                        experts were used                      satisfy the procurement
                                                                                                                                                         J&A              Yes

                                                           Internet searches and camera evaluations
                                                               and comparisons of other camera
                                                                                                          The contractor was the only source           J&A and
     21     N68335-09-D-0088          $11,000,000.00            programs were reviewed. Past
                                                                                                                      available                    Procurement Plan
                                                                                                                                                                          Yes
                                                             procurements were also reviewed and
                                                                             used.

                                                                                                        Due to time constraints, market research    Market research
     22     N68335-10-C-0386           $400,000.00            Market research was not conducted2                                                                          Yes
                                                                                                                  was not performed                checklist and J&A

                                      $10,400,000.00
                                                                                                         Future procurements may be competed
                                      First addendum
                                                                                                           when the technical data package is
                                    decreased value to
                                                            Request for Information was issued, and     complete. The technical analysis showed    J&A and Request
     23     N68335-09-C-0100        $6,933,333.00, but
                                                              a technical analysis was performed        that no other source was capable without    for Information
                                                                                                                                                                          Yes
                                   the second increased
                                                                                                             the drawings and configuration
                                     the value back to
                                                                                                                        knowledge
                                     original estimate
1
    Although the market research conducted was considered adequate, the market research was not adequately documented.
2
    Although market research was not conducted, the rationale provided for not conducting research was considered appropriate.




                                                                                             24
	
